HHS/OIG, Audit -"Review of Medicare Part A Administrative Costs Claimed by Anthem Health Plans of Maine - October 1998 Through September 2001,"(A-01-02-00525)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A Administrative Costs Claimed by Anthem Health Plans of Maine - October 1998 Through September
2001," (A-01-02-00525)
April 8, 2004
Complete
Text of Report is available in PDF format (677 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the fiscal intermediary (FI) established effective
controls over the accounting and reporting of administrative costs, and the costs claimed on the proposal complied with
applicable Federal regulations and contract provisions.  As a result, the FI did not employ control procedures sufficient
to ensure compliance with Federal cost principles and Medicare contract provisions.  During fiscal years (FY) 1999
through 2001, the FI claimed $67.6 million in Medicare administrative costs.  We found that the FI claimed unallowable
costs totaling $2,754,992.  Internal control weaknesses also resulted in $634,724 in data processing costs being set
aside for the Centers for Medicare and Medicaid Services review and $1.4 million of pension cost reporting errors being
included in the FY 2001 proposal.  The above findings primarily related to inadequate controls for supporting and
allocating indirect costs to the Medicare program.  We recommended financial adjustments and improvements to internal
controls.